u.s. 	Department of Labor               Office of Inspector General
                                        Washington, D.C. 20210



    September 30,2010


    MEMORANDUM FOR:             JANE OATES
                                Assistant Secretary for Employment
                                  and Traininq




    From:                       ELLIOT P. LEWIS
                                Assistant Inspector General
                                  for Audit


    Subject: 	                  Review of Report on Improper Payments in the
                                Unemployment Insurance Program
                                Report No. 22-10-020-03-315



    Executive Order (EO) 13520,'Reducing Improper Payments, requires within 180 days
                                                                      '



    of the order dated November 20,2009,that each agency official designated as the
    program accountable official under section 3(a) of the EO 13520 shall provide a report
    on Improper Payments to the agency's Office of Inspector General (OIG). The Improper
    Payments report should contain the agency's methodology for identifying and
    measuring improper payments,along with the agency's efforts for meeting the reduction
    targets for improper payments,while ensuring continued access of eligible individuals to
    the programs designated as "high priority" by the Office of Management and Budget
    (OMB). The Department of Labor (DOL) Unemployment Insurance (UI) program meets
    the OMB threshold of at least $750 million in improper payments as reported in the
    Department's annual Performance and Accountability Report (PAR) for FY 2009 (DOL
    reported $12.3 billion in UI improper payments in its FY 2009 PAR).


    Section 3(b) of EO 13520 requires the OIG to conduct a review of the report and
    provide the agency with recommendation(s) if any for modifying the agency's improper
    payment reduction plan,methodology,or program access and participation. This
    memorandum fulfills the requirements of section 3(b) of the EO 13520.


    The EO 13520 and supporting guidance,OMB Circular A-123, Part III, Appendix C
    issued March 22,2010,requires the Department to submit a report to the OIG
    containing,in-part,the following:


       •    a plan with supporting analysis for meeting the reduction targets for improper
            payments.
       •    methodology for identifying and measuring improper payments.
       •    a plan with supporting analysis for ensuring the initiatives undertaken pursuant to
            the EO 13520 do not unduly burden program access and participation by eligible
            beneficiaries.




                             Workingfor America \' Workforce
                                                               -2-


Results

The Department’s Improper Payments report on UI could be improved to meet the
requirements of section 2(b) (iv), 3(b) and 3(f) of EO 13520 and supporting OMB
guidance. The UI reduction plan did not include specific targets for reducing improper
payments; sufficient details regarding meeting the targets; and supporting analysis
related to the implementation initiatives and expected impact. Additionally, the
Department’s methodology for identification and measurement of improper payments
did not evaluate the entire population of UI programs and may not have identified the
total extent of individually significant improper payments (i.e., those totaling $5,000 or
more).

In addition, and importantly, the Department’s planned improper payment reductions
and recovery targets for the UI program are dependent on the cooperation and support
of State agencies and other parties outside of the Department, and this factual
circumstance could have been discussed in the report. The reduction plan could also
include how the unique relationship between the Department and the State agencies
will affect implementing any proposed initiatives, and the expected impact of those
initiatives. Finally, nothing came to our attention regarding the initiatives undertaken
pursuant to the EO that would cause any unnecessary burden to program access or
participation by eligible participants.

Reduction Plan Needs Modification: The UI Improper Payments report dated
May 21, 2010, could be improved by including specific targets and the actual rates
achieved for reducing improper payments. For example, the reduction plan did not
present the actual Improper Payment Rate of 10.3 percent, which exceeded the
targeted rate of 10.0 percent for 2009.

The UI overpayment reduction plan could also be improved by adding sufficient detail to
ensure the program meets or exceeds the reduction rate target 1 . In the UI Improper
Payments report, seven ‘integrity’ initiatives were mentioned to detect, recover, and
prevent improper UI payments, which should reduce improper payments. However, five
of the seven initiatives focused the majority of their efforts on detection rather than
prevention of overpayments.

The report alludes to the fact that states are primarily responsible for preventing
improper payments, but could contain more information about the significance of the
States’ roles in meeting the reduction targets. For example, the National Directory of
New Hires (NDNH) is of one of the initiatives mentioned in the report. The NDNH
initiative matches UI claims with the NDNH and State Directory of New Hires (SDNH) in
order to identify claimants who have returned to work and continue to claim UI benefits. 2
However, each state’s implementation of the NDNH initiative is contingent on the state’s

                                                            
1
  The Department of Treasury ‘Payment Accuracy’ website showed a targeted UI Improper Payment Rate of 9.9% for
2010. 
2
  At this time, California and the District of Columbia, do not participate in the NDNH.
                                                               -3-


administrative policies and procedures, which vary throughout the U.S. with respect to
regulations and policies specifying eligibility requirements, a condition which influences
the potential for error and possible overpayments. The implementation of this initiative
will vary from state to state and may have varying levels of impact and results.
Consequently, the impact or projected impact each initiative has on the overall reduction
plan will be dependent on state implementation. The expected impact of the NDNH
initiative in the reduction of improper payments and the fact that this initiative is
contingent on the degree of state implementation was not adequately explained in the
report.

Although the report provided limited discussion regarding root causes for improper
payments, it lacked sufficient details regarding an actual plan related to the
implementation of the initiatives and the expected impact on the reduction of the UI
improper payment rate. The reduction plan should describe the various causes of
improper payments the initiatives will address, the anticipated return on investment, and
how these initiatives will help the UI program meet or exceed the improper payment
target rate. Additionally, the initiatives highlighted in the report did not include
implementation data, including cost benefit analyses and expected impact analyses on
reducing improper payments. Also, the report did not contain sufficient data regarding
the correlation between the initiatives and reduction or prevention of improper
payments, only the improper payments detected if the states chose to implement.
Finally, the plan did not include a strategy to ensure state participation and compliance
within the federal-state partnership 3 .

Methodology for Identification and Measurement Needs Modification: The Department’s
methodology for identification and measurement of improper payments did not measure
all UI programs and may not have identified the total extent of high-dollar improper
payments (i.e., those totaling $5,000 or more).

Improper payment rate estimates were based on the results of the Benefit Accuracy
Measure (BAM) statistical survey. BAM predates the EO and only covers the three
largest permanently authorized UI programs. 4 In addition to these programs, the
Improper Payment Integrity Act (IPIA) defined improper payment outlays to include
temporary and episodic programs such as Emergency Unemployment Compensation,
Extended Benefits, and Federal Additional Compensation, which are not included in the
BAM estimates.

Furthermore, BAM was designed as a quality control program for paid and denied UI
claims. BAM uses a statistical sampling methodology to estimate total improper
payments for the UI programs included in its survey and may not provide a complete

                                                            
3
  The UI program is a federal-state partnership based upon federal law, but administered under state laws. Because
of this structure, the program is unique among other Federal programs. Additionally, the UC program is unique in that
the benefits paid under the state UI program are almost totally funded by employer taxes.
4
  The three largest permanently authorized UC programs are State UI, Unemployment Compensation Federal
Employees (UCFE), and Unemployment Compensation for Ex-Service Members (UCX).
                                             -4-


estimate of the total number and amount of high-dollar improper payments, which are
required to be reported by the EO. Using the BAM survey of paid UI claims, the
Department identified overpayments of $5,000 or more to 188 individuals for FY 2009.
Additionally, the report only summarized by state the number of high-dollar
overpayments and did not provide the actual outlay of improper payments paid to those
individuals totaling $1,440,925 (a part of the 12.3 billion reported for the period July
2008 through June 2009).

The Department’s methodology for identifying and measuring UI improper payments
could be improved by considering other improper payment detection systems currently
in the states, as well modifications to the BAM to provide a more complete estimate of
high-dollar improper payments.

Program Access and Participation: The EO and related OMB guidance require the
agency to provide supporting analysis for ensuring the initiatives undertaken pursuant to
the EO do not burden program access and participation by eligible beneficiaries. Based
on our review of the Department’s initiatives, nothing came to our attention, which would
impede access or unduly burden eligibility/participation in the UI program.

Recommendations

1. We recommend the UI Program Accountable Official modify the plan to include:

       Specific details regarding rate reduction by utilizing corrective actions with clear
        milestones illustrating the impact the rate reduction will have on improper
        payments.
       Targeted reduction strategies to include specific guidelines that encourage
        collaborative efforts between the Department and the states to ensure
        reductions of improper payments are achieved.
       Financial impacts and cost benefit analyses that show corrective actions will
        bring about a rate of return on investment.
       Specific targeted reduction strategies and ways to ensure state participation and
        compliance with initiatives to meet or exceed reduction targets.

2. We also recommend the UI Program Accountable Official consider the use of a more
   accurate presentation of the reduction plan’s progress in reducing improper
   payments. For example, consider using other reports that provide real-time data, as
   well as a more accurate count of the entire improper payments universe than the
   current methodology.
                                           -5-


Department’s Response

The Department’s response to our draft memorandum is included in its entirety as an
Attachment to this report. We have modified the memorandum as appropriate based on
its response. In its response, the Department stated it is committed to working with the
state workforce agencies to develop administrative policies and procedures that will
reduce improper payments in the UI program. Additionally, the agency considered our
recommendations and will look into the feasibility of providing additional information as
part of its next annual report. Finally, the Department indicated that it would seek
modification from OMB of its data collection systems to obtain a more accurate count of
the number of UI claimants in the population who have received overpayments in
excess of $5,000.

__________________

In accordance with DLMS 8 – Chapter 500, paragraph 533, you are requested to
provide a written response within 60 days indicating your agreement or disagreement
with each recommendation in the report. If you agree with the recommendations, your
response should identify planned corrective actions, officials responsible for such
actions, and dates by which the actions should be taken and full implementation
achieved. If you disagree with the recommendations, your response should fully explain
the reason(s) for disagreement.

If you or your staff has any questions, please call Joseph L. Donovan, Jr., Audit
Director, at (202) 693-5248.



Attachment

cc: T. Michael Kerr, Assistant Secretary for Administration and Management
 


    Attachment
 


 
 


 
 


 
 


 
